<html>
<title> - ASSESSING U.S. DRUG POLICY IN THE AMERICAS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
               ASSESSING U.S. DRUG POLICY IN THE AMERICAS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 15, 2009

                               __________

                           Serial No. 111-46

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
52-855                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d2a3d220d2e383e392528213d632e222063">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                   ELIOT L. ENGEL, New York, Chairman
GREGORY W. MEEKS, New York           CONNIE MACK, Florida
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GENE GREEN, Texas                    CHRISTOPHER H. SMITH, New Jersey
GABRIELLE GIFFORDS, Arizona          DAN BURTON, Indiana
ENI F. H. FALEOMAVAEGA, American     ELTON GALLEGLY, California
    Samoa                            RON PAUL, Texas
DONALD M. PAYNE, New Jersey          JEFF FORTENBERRY, Nebraska
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
BARBARA LEE, California
JOSEPH CROWLEY, New York
RON KLEIN, Florida
              Jason Steinbaum, Subcommittee Staff Director
        Eric Jacobstein, Subcommittee Professional Staff Member
           Fred Ratliff, Republican Professional Staff Member
                  Julie Schoenthaler, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mary Bono Mack, United States House of 
  Representatives................................................     2
The Honorable Mark Schneider, Senior Vice President, Special 
  Adviser on Latin America, International Crisis Group (Former 
  Director of the Peace Corps)...................................    17
Mr. John Walsh, Senior Associate, Andes and Drug Policy, 
  Washington Office on Latin America.............................    28
Ray Walser, Ph.D., Senior Policy Analyst for Latin America, 
  Douglas and Sarah Allison Center for Foreign Policy Studies, 
  The Heritage Foundation........................................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mary Bono Mack: Prepared statement.................     4
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     9
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida: Prepared statement...........................    13
The Honorable Mark Schneider: Prepared statement.................    20
Mr. John Walsh: Prepared statement...............................    30
Ray Walser, Ph.D.: Prepared statement............................    43

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Eliot L. Engel: Material submitted for the record..    68


               ASSESSING U.S. DRUG POLICY IN THE AMERICAS

                              ----------                              


                       THURSDAY, OCTOBER 15, 2009

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:26 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the subcommittee) presiding.
    Mr. Engel. I am pleased to welcome everyone here to our 
hearing now, the hearing part of U.S. Drug Policy in the 
Americas.
    Before I present my opening statement and offer members on 
the subcommittee the opportunity to do the same, I would like 
to call on our first witness, my good friend, Congresswoman 
Mary Bono Mack.
    Congresswoman Bono Mack is one of Congress' foremost 
leaders on U.S. drug policy, tirelessly advocating for greater 
spending on domestic drug prevention and treatment programs. 
She is also a colleague of mine on my other committee, the 
Energy and Commerce Committee, and of course also has a special 
relationship with this subcommittee as the wife of Ranking 
Member Mack.
    I recently, several months ago, had the pleasure of 
traveling with both Congressman Mack and Congresswoman Bono 
Mack, and we had a very frank discussion about drugs. And 
Congresswoman Bono Mack said that if we ever had a hearing, she 
would be delighted to try to speak. And so all these months I 
have been eagerly anticipating it, because we know that your 
testimony is going to be special. So I thank you very much for 
agreeing to testify. And I look forward to hearing your 
testimony. And the floor is now yours.
    Welcome to the subcommittee.
    Mrs. Bono Mack. Thank you, Mr. Chairman.
    The ranking member has no opening statement?
    Mr. Mack. Mr. Chairman, would you yield so I could make an 
opening statement?
    Mr. Engel. I certainly would yield.
    Mr. Mack. Quickly, because we are running out of time. But 
I wanted to thank the chairman for the hearing, and also for 
asking Congresswoman Mack to be part of the hearing today. She 
is very passionate about this issue. And I think we all can 
learn from her experience in life and her passion on this 
issue. And so it is an honor for me to be the ranking member on 
this committee and have the opportunity for my wife to speak to 
the committee about drugs and the impact they have and the need 
of this Congress, this committee, and this Congress to address 
these issues. I am very proud of her.
    And with that, Mr. Chairman, I yield back. Thank you.
    Mr. Engel. Thank you.
    Congresswoman, I am glad you set the record straight over 
here.

STATEMENT OF THE HONORABLE MARY BONO MACK, UNITED STATES HOUSE 
                       OF REPRESENTATIVES

    Mrs. Bono Mack. Thank you, Mr. Chairman. I was just 
actually kidding at the time.
    But anyway, Chairman Engel, Ranking Member Mack, members of 
the subcommittee, I thank you very much for the opportunity to 
testify today on our Government's approach to reducing the 
supply of and demand for drugs in the Western Hemisphere. The 
challenge is one that not only affects so many families across 
our country, but also everything from our law enforcement 
efforts to scientific research and diplomatic priorities. The 
need to act on all fronts, prevention, treatment, research, and 
law enforcement, is crucial. There is no silver bullet.
    In particular, I have serious concerns with the trends we 
are seeing among our youth toward prescription drug abuse. 
Drugs like OxyContin are being abused across our country, with 
2,500 kids a day using a prescription drug to get high for the 
very first time. Just because it is sitting in the medicine 
cabinet does not mean it is safe. And these drugs are often 
used as a gateway to street drugs. When an addict goes after 
their next high, they really lose sight of the risks involved. 
And getting access to cheaper street drugs like heroin and 
cocaine from foreign countries becomes all too common. That is 
exactly why the hearing today is so important. We have got to 
increase efforts to stifle demand, while keeping the pressure 
on drug supply lines, both domestically and internationally.
    Our U.S. drug policy is one that is intricately woven into 
many branches of government. It really is one that I would 
argue can and indeed must be tackled at a community level. I 
have personally experienced the effects of drug addiction in my 
own family, much like I am sure others in this room have. Our 
efforts in Congress need an aggressive set of goals and, in 
some cases, an approach that needs to be refreshed. That is why 
it was encouraging to see the subcommittee moments ago pass 
H.R. 2134.
    I look forward to helping the chairman and the ranking 
member in pushing this legislation forward to the full House as 
soon as possible. The commission created in the legislation is 
needed, as the fight is ongoing. And it will allow us to better 
find the solutions to reducing the numbers of those using these 
dangerous substances which are staggering within our own 
borders. According to the National Survey on Drug Use and 
Health, in 2008, over 20 million Americans age 12 or older were 
current illicit drug users. That is 8 percent of that group of 
citizens.
    Though the trends related to abuse of some drugs are 
stabilizing, we are still seeing the shift to new drugs, like 
the prescription drug abuse epidemic affecting rural and urban 
America, across all economic Groups. We have seen in the media 
the violence in Mexico spreading across the border, and drug 
operations moving onto U.S. Federal lands, which are only a few 
examples of why the work of the commission is critically 
important to focusing our fight against this menace.
    My family, our family, has been affected by addiction to 
prescription drugs, and it is a battle we will continue to 
fight together. But only with the right tools can parents and 
communities lessen the impacts to those they love.
    I seek to work with this committee, Mr. Chairman, along 
with your other committee, my committee, the House Energy and 
Commerce Committee, to create a foundation for domestic and 
international drug policy that balances maintaining our vital 
law enforcement efforts with an augmented demand-side effort 
toward reducing substance abuse and addiction. There are a few 
specific programs we can take a closer look at. And I am 
hopeful the commission created in H.R. 2134 does this as well.
    In particular, we should focus on the work undertaken by 
the State Department's Bureau of International Narcotics and 
Law Enforcement Affairs. They are at the tip of the spear for 
tracking and assisting with the foreign criminal justice 
systems on the law enforcement side of the equation, while also 
seeking to address demand-side problems that continue to 
increase in both source and transit countries. It is my firm 
belief that their demand-side program is critical to showing 
our commitment to helping other nations impacted by the scourge 
of drugs and building a shared sense of mission and solid 
international alliance to confront this threat. After all, we 
can't ignore the fact that as current trafficking routes 
mature, the addiction can easily shift from making money to the 
drugs themselves, which can contribute to dragging down local 
populations.
    The State Department's INL bureau actively works to 
leverage taxpayer dollars so that we can work collaboratively 
with community groups, local schools, and faith-based 
organizations. That is key, because it is really where we can 
start to see the important changes within families once a 
region has been stabilized.
    At some point, families living everywhere, from Medellin, 
Colombia, to cities in the United States, should have a strong 
democratic foundation for communities that rely on each other 
to actively fight drug trafficking. Only with this level of 
engagement can we begin to have real lasting effects on the 
other impacts narcotraffickers have on our societies, such as 
transnational crime, money laundering, and paramilitary 
aggression, and undemocratic governments who chose to fund 
these criminals.
    With that, Chairman Engel and Ranking Member Mack, I am 
hopeful that we are starting down the path of renewed focus on 
our approach to international drug policy in the Western 
Hemisphere. And this issue should entail a bipartisan approach.
    I thank you very much for the opportunity to testify. And 
again, I look forward to supporting H.R. 2134 as it moves 
forward. It shows me and the rest of Congress your sincere 
commitment to these issues and should prove a strong step in 
the right direction for the Americas.
    Thank you very much.
    [The prepared statement of Mrs. Bono Mack 
follows:]<greek-l>Mary Bono Mack deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Well, thank you very much, Congresswoman.
    And I certainly think your highlighting prescription drug 
abuse is very important. It tends to get lost in the shuffle, 
and it shouldn't, because it is a problem of epidemic 
proportion.
    And I am also glad that you stressed bipartisanship, 
because the only way we are going to tackle the problems with 
drugs in America or in the Western Hemisphere is by working in 
a bipartisan manner. The scourge of drug addiction doesn't stop 
at a Democratic house or Republican house. It goes to all 
houses, all American houses in both North and South America. So 
I thank you for highlighting that.
    I don't know if the ranking member would like to make a 
comment, but somehow I think he better.
    Mr. Mack. Thank you, Mr. Chairman.
    There was a threat of the couch earlier.
    Mr. Chairman and Congresswoman Mack, I want to thank you 
for your testimony here, because I think it gives people an 
opportunity to hear from others that are policymakers, but also 
have been affected personally. And it is not easy and it is not 
every day that people are willing to put themselves out as you 
have. And I commend you for that.
    And I am very proud of you. Thank you.
    Mr. Engel. I think we will let that be the last word.
    Needless to say, we are all proud of you. And sometimes it 
is not very easy to talk publicly about private things that go 
on in a family, and it takes a great deal of courage. So thank 
you for your courage. I thank you for your expertise and look 
forward to continuing to work with you on this very difficult--
these difficult problems. And I know you have a lot to offer. 
So I thank you.
    And as people can hear, we have about 5 minutes left for a 
vote. So we are going to go and take a series of votes, come 
right back after the votes, and then we will listen to our next 
panel. So we will recess temporarily until about 5 minutes 
after the votes.
    [Recess.]
    Mr. Engel. The subcommittee will come to order. We will 
begin. I will let anyone who would like an opening statement to 
do so, and I will make mine first.
    Let me first say that assessing U.S. drug policy in the 
Americas is certainly something that is very, very important. 
And it is something that is long overdue.
    Report after report over the past year has come to the same 
conclusion, that U.S. counternarcotics efforts are not giving 
us the results we want to see. Whether it is the Brookings 
Institution, the International Crisis Group, or the Latin 
American Commission on Drugs and Democracy, chaired by three 
former Latin American Presidents, the conclusion is the same: 
It is time to reassess our counternarcotics efforts and to 
construct a new strategy.
    Even Secretary of State Hillary Rodham Clinton said in 
March that ``clearly, what we have been doing has not worked.''
    While billions of U.S. taxpayer dollars have been spent 
over the years to fight the drug war in Latin America and the 
Caribbean, the positive results are, unfortunately, few and far 
between.
    For too long our country has been overly focused on the 
supply side of the drug trade, while paying far too little 
attention to what happens here at home. I am shocked that while 
the United States accounts for approximately 5 percent of world 
population, in 2007, an estimated 17 percent of the world's 
users of illegal drugs were from the United States.
    I am pleased that President Obama and Secretary Clinton 
have quickly taken leadership in asserting that the U.S. must 
do more to reduce our demand for illegal drugs. On her first 
visit to Mexico as Secretary of State, Hillary Clinton said, 
``our insatiable demand for illegal drugs fuels the drug 
trade.''
    Similarly, when Seattle Police Chief Gil Kerlikowske 
accepted President Obama's nomination to be our drug czar, he 
noted that the success of our efforts to reduce the flow of 
drugs is largely dependent on our ability to reduce demand for 
them.
    These statements are a breath of fresh air as far as I am 
concerned. I look forward to working with the Obama 
administration to build a more balanced strategy that increases 
our investment in domestic prevention and treatment programs as 
well.
    But let me be clear, a reassessment of U.S. drug policy 
certainly should not mean a rejection of our existing programs 
which seek to curtail the supply of illicit narcotics. On the 
contrary, we must continue to support our friends in the 
Americas as they combat drug cartels in their own countries. 
And of course, Mexico and Colombia come to mind. But we must do 
so with clearer goals in mind, and in a more holistic and 
better coordinated manner.
    As we all know, there are several pieces to the U.S. 
counternarcotics strategy in the region. The Andean 
Counternarcotics Initiative, mostly focused on Colombia, but 
also Peru, Bolivia, and Ecuador; the Merida Initiative, with 
its main focus in Mexico but also Central America, as we had 
discussed at a private meeting that we had before the hearing; 
and the recently proposed Caribbean Basin Security Initiative, 
CBSI.
    There are many excellent components to each of these 
programs, and I have been a strong supporter of these efforts. 
But for far, far too long we have overly focused our 
counternarcotics efforts on one specific country or subregion, 
only to see the drug trade quickly move to the next place in 
the hemisphere.
    For example, as President Calderon bravely combats drug 
traffickers in Mexico, and I am a big supporter of what 
President Calderon is doing, the drug trade has slammed 
Guatemala, a country with weaker institutions than its neighbor 
to the north and a lower capacity to combat violent drug 
cartels.
    If we want to see real results on the counternarcotics 
front and greater security here in our own neighborhood, we 
must move away from the current piecemeal approach to 
counternarcotics and embrace a more holistic strategy. I urge 
the Obama administration to work with our partners in the 
hemisphere to develop a counternarcotics strategy that can 
withstand the so-called balloon effect that results from 
pressure in one region causing the drug trade to move to 
another region. That can only be done through a better 
coordinated, more holistic counternarcotics strategy.
    To this day, I cannot figure out who at the State 
Department is overseeing our counternarcotics efforts in the 
Western Hemisphere. Different people seem to be running the 
Andean programs and the Merida Initiative. And I have no idea 
how the Caribbean Basin Security Initiative will fit into those 
operations or who will manage its integration into existing 
efforts.
    I, therefore, call for an executive branch coordinator at 
the State Department to oversee and manage our counternarcotics 
programs in the Americas. Forty years ago, in July 1969, 
President Richard Nixon identified drug abuse as ``a serious 
national threat.'' Two years after that, President Nixon 
declared a war on drugs, identifying drug abuse as, ``public 
enemy number one.''
    Unfortunately, four decades later, rather than being able 
to recount our successes, we find ourselves asking what went 
wrong. We cannot hesitate in reassessing U.S. drug supply and 
demand policies so that our children are not having this same 
discussion 40 years from now.
    I thank everyone for listening.
    I am now pleased to call on my good friend, Ranking Member 
Mack for his opening statement.
    [The prepared statement of Mr. Engel 
follows:]<greek-l>Engel statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Mack. Thank you, Chairman Engel, for holding this 
hearing today.
    And I also want to say congratulations for passing your 
bill earlier today--I guess our bill. I appreciate you working 
across the aisle with us.
    Mr. Engel. Our bill is correct. Thank you for working with 
me on the bill, and I also thank the lady we just had testify 
working with us as well. Thank you.
    Mr. Mack. Thank you. The problem of illicit drugs affects 
individuals from all cultures and all walks of life. When we 
evaluate U.S. drug policy in the Americas, we must take an all-
encompassing approach to the problem, which we have talked 
about here today.
    The debate on supply and demand must be looked at from a 
different paradigm. Some will focus on the treatment or better 
education. Others will focus on supply and the law enforcement 
aspect of the problem. We must attack the problem from all 
angles and all perspectives.
    Mr. Chairman, our policy must be effective, but more 
importantly, it must be objective. First, we must have reliable 
partners who are serious about curbing drugs, partners such as 
Peru and Colombia. The ONDCP has said that Colombia went from 
an almost failed state to a strong democratic nation with an 
improving economy and reduced levels of violence. It also said 
that Peru's President Garcia has clearly demonstrated his 
commitment to counternarcotics cooperation.
    These are not my words, Mr. Chairman, but the assessment of 
the ONDCP. In order to have a comprehensive and sensible 
approach to the drug problem facing the hemisphere, we must 
have leaders who actually care about curbing both the demand 
and the supply of narcotics.
    Take Bolivia as an example. According to our very own 
Office of National Drug Control Policy, Bolivia's leader, Evo 
Morales, continues to pursue drug policies that would not only 
violate current Bolivian law, but would also violate the 1998 
U.N. Drug Convention.
    And then there is Venezuela, Mr. Chairman.
    If there is one thing President Bush and President Obama 
agree on well, this is Venezuela, specifically Chavez's choices 
when it comes to counternarcotics efforts. According to 
President Obama, Venezuela has failed during the past year when 
it comes to counternarcotics efforts. The administration 
continues that Venezuela has refused to cooperate on almost all 
counternarcotics issues.
    Chavez's refusal to act responsibly not only hurts 
Americans, but now Venezuela has the second highest murder rate 
in the world. The Venezuelan Government's alignment with drug 
lords is so pervasive that ministers of the Chavez government 
are now categorized as tier-two kingpins.
    Frankly, Mr. Chairman, in our role as members of the 
Western Hemisphere Subcommittee, we must conclude that leaders 
of the hemisphere who act irresponsibly, and even in a holistic 
fashion, that their actions end up killing Americans. We must 
conclude that regardless of supply or demand, eradication or 
treatment programs for heavy users, that there must be 
responsible leadership from the top.
    As we hear from our witnesses today, I look forward to a 
healthy debate where we can address both the supply problems, 
but also the demand problems. We must look at reducing program 
duplication and foster interagency collaboration.
    Mr. Chairman, it is important, as I have said when I first 
started, that our analysis be objective. The supply of drugs 
has become a much more complex matter than drugs coming from 
Latin America into the United States.
    Presently, according to the 2009 State Department Report on 
Narcotics Strategy, the U.S. has become the top producer of two 
out of the four most threatening drugs.
    Mr. Chairman, I look forward to hearing the testimony today 
from our witnesses, and I yield back.
    [The prepared statement of Mr. Mack 
follows:]<greek-l>Connie Mack statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you very much, Mr. Mack.
    I appreciate the comments. In my estimation, they are very 
well said. Thank you.
    Would anyone else like to--Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for holding today's 
hearing.
    When we talk about drug trafficking, we are not just 
talking about the production and transportation of illegal 
drugs. Unfortunately, the production and transportation of 
illegal drugs is just part of the violent, immoral, and corrupt 
criminal network that challenges our laws, our safety, and our 
future.
    Despite many years and several billion dollars spent, drug 
trafficking continues to be an overarching obstacle impending 
security and development in the Western Hemisphere. I am 
pleased that the subcommittee has approved Chairman Engel's 
legislation to create a commission to review and evaluate our 
counternarcotics policies in the Western Hemisphere. The 
commission is charged with identifying options that can improve 
our current policies.
    The Obama administration has shown interest in increasing 
prevention efforts by targeting youth through social programs, 
improving treatment options, and enhancing the rule of law in 
partner countries. These are noble objectives, and it is my 
hope that we see a strong focus on these areas when the 
administration announces its drug control strategy in the 
coming years.
    Thank you, Mr. Chairman. I look forward to hearing from 
today's witnesses.
    Mr. Engel. Thank you, Mr. Sires.
    Ms. Giffords?
    Ms. Giffords. Thank you, Mr. Chairman, Ranking Member Mack, 
for holding this very important hearing today.
    The Justice Department considers Mexican drug trafficking 
organizations the greatest organized threats to the United 
States, and estimates that the combination between Mexican and 
Colombian trafficking to generate, to launder, to remove drugs 
is between $18 billion and $39 billion a year. As we know, this 
is completely unacceptable.
    I have 1 of 10 United States-Mexico border districts. I 
have the Eighth Congressional District of Arizona. And we are 
so heavily impacted disproportionately because of the sheer 
traffic that moves through southern Arizona. When I speak with 
my local law enforcement agents, and they are working overtime 
they are not properly reimbursed for, a lot of costs that are 
incurred; they brought to my attention this new trend of 
smuggling drug money in and out of the United States in the 
form of stored value cards.
    Specifically, I am talking about these cards that can be 
used like debit cards or credit cards that may be used to 
receive cash from ATMs. Remarkably, they have gone largely 
unregulated by the United States Department of Treasury. And as 
a result, the stored-value cards are not included in cash 
transaction reports, reports of international transportation of 
currency, monetary instruments, suspicious activity reports. 
These are all areas that I would like to, after the panelists 
have a chance to testify, to really hear how we can work with 
Treasury and also the House Financial Services Committee to 
improve the situation.
    We all know that these drug traffickers are incredibly 
smart. But if we can possibly manage to get a step ahead of 
them to be able to minimize the impacts they have in this 
multi-billion dollar industry. And Mr. Chairman, I yield back. 
Thank you.
    Mr. Engel. Thank you, Ms. Giffords.
    Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Thank you and Ranking Member Mack, again, for convening 
this very important hearing, also to create--the legislation at 
least to create the Western Hemisphere Drug Policy Commission, 
which does represent the sort of forward thinking that is 
necessary to addressing this vicious spread of illicit drug use 
and narcotrafficking which continues, and increasingly so, 
unfortunately, to devastate families and communities both at 
home and abroad.
    I would also just like to welcome our witnesses this 
afternoon and thank them for your valuable testimonies.
    By any honest assessment, U.S. drug policy over the past 30 
years has failed. Although we have spent trillions upon 
trillions of dollars on counternarcotics efforts in Latin 
America and in the Caribbean, the use of illicit drugs, from 
cocaine to heroin, has steadily risen. And of course drug-
related violence has spiraled out of control.
    To top off this failure, United States drug policy has 
instigated vast collateral damage, from human rights violations 
to social and political upheaval. The intentionality of this 
damage is really irrelevant. We know very well that the human 
costs of current policy, what they are at least, and we know 
that they are unacceptable.
    The underlying assumption of our efforts to counter the 
spread of narcotics is that the illicit drug use is harmful 
both to person and to society. Therefore, if our policies are 
not only failing to rein in drug use but are themselves causing 
unacceptable harm to vulnerable individuals and communities, 
clearly it is time for this change.
    So I welcome the establishment of this commission to assess 
current drug policy and to offer a more effective way forward. 
I hope that it will not only examine the efficacy of our 
current policy but also the underlying premises on which this 
policy is based.
    Also I am especially pleased that the bill voted out today 
includes as the commission's duties an assessment of U.S. drug 
prevention and treatment programs and recommendations of 
policies aimed at both supply and demand for illicit drugs. 
Given the vastly disproportionate focus that U.S. drug policy 
has given to supply-side programs, I am glad that both the 
subcommittee and the Obama administration as well intends to 
take an honest look at demand reduction programs, which are 
crucial to improving policy effectiveness. I am also pleased 
that the commission's duties include an assessment of the most 
effective experiences in the United States and throughout the 
world in treating drug addicts and in reducing the damage 
caused by drug addiction to individuals and to society.
    Also, as I said earlier, the commission in carrying out its 
duties must investigate comprehensively the best practices 
around the world that target specifically and directly the 
societal devastation caused by illicit drug markets and drug 
use, from the spread of infectious diseases, like HIV and AIDS, 
to the surge of crime and violence.
    So thank you, again, Mr. Chairman.
    I want to thank our ranking member, because I think this is 
a major step in the right direction. All of our communities 
know and feel the impact of drug use, drug addiction, and the 
narco trade. So this is again a very important bill. Thank you.
    Mr. Engel. Thank you very much, Ms. Lee. Thank you for 
those words. I agree with everything that was said by all of 
our colleagues. Obviously, this is something that is very, very 
important. I am now very pleased to introduce our distinguished 
private witnesses.
    First Mark Schneider is senior vice president and special 
adviser on Latin America at the International Crisis Group. He 
previously served as Director of the Peace Corps and as 
Assistant Administrator for Latin America and the Caribbean at 
the U.S. Agency for International Development, USAID. And Mr. 
Schneider has been before this committee I believe on two 
previous occasions as well. And we always value his testimony 
and his expertise.
    So I thank you.
    John Walsh is a senior associate for Andes and Drug Policy 
at the Washington Office on Latin America, WOLA. So Mr. Walsh, 
I look very forward to what you have to say.
    And last but certainly not least, Ray Walser is a senior 
policy analyst for Latin America at the Heritage Foundation. He 
also has appeared before this committee. And we welcome his 
excellent testimony. So thank you three gentlemen for coming.
    And we will start with you, Mr. Schneider.
    Let me remind everyone that if you want to put your 
testimony into the record, I will do that, and you can 
summarize your remarks within 5 minutes. And I ask you to 
please keep them within the 5-minute limit. Thank you.
    Mr. Schneider.

    STATEMENT OF THE HONORABLE MARK SCHNEIDER, SENIOR VICE 
  PRESIDENT, SPECIAL ADVISER ON LATIN AMERICA, INTERNATIONAL 
       CRISIS GROUP (FORMER DIRECTOR OF THE PEACE CORPS)

    Mr. Schneider. Thank you very much, Mr. Chairman, members 
of the committee, for the invitation to appear before you today 
on Assessing U.S. Drug Policy in the Americas, and also for 
your statements recognizing the nature of this problem, the 
nature of the threat that it poses to the United States and to 
the countries of the hemisphere. And I also want to 
congratulate you on the approval of the legislation 
establishing the Western Hemisphere Drug Policy Commission Act. 
It seems to me that this is the kind of measure which does 
provide for a bipartisan and hopefully very broad reexamination 
of the issues facing this country with respect to 
counternarcotics policy.
    I appear before you on behalf of the International Crisis 
Group, and I would appreciate my testimony in full being 
incorporated into the record.
    Mr. Engel. Without objection.
    Mr. Schneider. In the Americas, Crisis Group has been 
particularly engaged in the Andean countries and Haiti, and 
seeking to basically prevent conflict and to bring conflicts, 
where they exist, to an end. In both of those areas, as well as 
the Central American transit countries, violence, corruption 
and instability result from coca cultivation, cocaine 
production and trafficking, and thus pose significant threats 
to democratic institutions. As has been mentioned, over the 
past 7 years we spent some $6.8 billion on Plan Colombia alone. 
This year alone in the United States we will spend something 
like $30 billion on domestic incarceration, law enforcement, 
and a very small portion on treatment. It is clear that there 
are fundamental changes required in U.S. strategy.
    The Crisis Group has called for that kind of independent 
review.
    And as you have noted, Mr. Chairman, the Latin American 
Commission on Drugs and Democracy focused on the same history, 
costs, and results of the war on drugs strategy and suggested 
that a radical revision was needed. I think it is important, 
these leaders are concerned about the violence in their own 
countries that drug trafficking poses. They are concerned about 
rising illegal consumption within their countries. And 
particularly I say in the Southern Cone countries, this is 
something that is growing in Chile, Argentina, and Brazil. And 
of, course in Colombia the links to illegal armed groups that 
accompany drug trafficking. And as you have noted, Mr. 
Chairman, this is an issue that is a regional issue, and it 
requires a regional solution. And hopefully this commission 
will be a mechanism for doing so.
    And I also want to emphasize the importance of the 
commission's finding that there is a need in looking at the 
problem of addiction and looking at it through a public health 
focus rather than solely a criminal prosecution lens. And that 
demand reduction position also is echoed by the new director of 
the White House National Drug Policy Council, Gil Kerlikowske.
    He also said that one-fifth of all of the cocaine users in 
the United States account for two-thirds of U.S. total cocaine 
consumption. And less than 10 percent of all diagnosed cases of 
addiction are treated. And about half of the 9 million people 
behind bars in this country have serious addiction problems. Of 
the 700,000 that are released each year, about half of them 
still have addiction problems and have not had treatment in 
prison.
    The Andean countries, as some of the charts that I have put 
into the testimony, and I just call your attention to one shown 
on page 4, that indicates that over the course of the last 21 
years, from 1988 until 2008, you have essentially had the same 
level of coca cultivation in the Andes, approximately 200,000 
hectares under cultivation throughout that period. Differs 
between countries and time, but basically about the same level, 
despite everything that has been done. So, clearly, there is a 
need to revise that policy.
    And the other point that I would raise, there is one other 
chart in there that shows, it is from the Joint Task Force--
Interagency Task Force South, JTIAF-South in Key West, which 
found that last year over 1,000 metric tons came through 
Central America and Mexico to the United States. And of that, 
for the first time, 65 percent stopped first in Central America 
rather than Mexico.
    And as you have noted, those countries have far less 
capability to meet both the weapons and the corruption that the 
drug traffickers possess.
    And clearly, as you know yourself, Mr. Chairman, in the 
Caribbean, President Preval views drug trafficking as a major 
threat to the political transition in Haiti and to the 
political reforms in that country.
    And finally, since I see the clock ticking down, let me 
just emphasize that there are three issues that we consider to 
be crucial. One is placing far more priority on public health 
perspectives and demand reduction, bringing to national scale 
the good pilot programs that exist, drug courts, et cetera. 
Second, in the supply countries of the Andes, concentrate more 
on rural poverty reduction as well as increasing the capability 
of law enforcement institutions.
    And finally, in the supply countries and the transit 
countries, there is a need to support strengthening law 
enforcement, and also for focusing on the issue of what to do 
about the youth who are most vulnerable to trafficking. These 
are youth who, unfortunately, have not had a lot of education, 
don't have a lot of job opportunities. A strategy must be 
developed to deal with that problem.
    And Mr. Chairman, let me just finally say here at home we 
have a responsibility to halt the arms flow south, just as we 
are asking the countries in the region to do a better job on 
halting the drug flow north. Thank you.
    [The prepared statement of Mr. Schneider 
follows:]<greek-l>Mark Schneider deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you very much, Mr. Schneider.
    Mr. Walsh.

 STATEMENT OF MR. JOHN WALSH, SENIOR ASSOCIATE, ANDES AND DRUG 
           POLICY, WASHINGTON OFFICE ON LATIN AMERICA

    Mr. Walsh. Chairman Engel, Ranking Member Mack, and members 
of the subcommittee, it is an honor to be here today to 
testify, especially in light of the advance of the bill to 
create a Western Hemisphere Drug Policy Commission, which could 
be a very important moment in reframing the debate on such an 
important issue.
    In concert with this debate, as you have all remarked, 
within Latin America itself, there is growing debate and 
growing unease about the direction of drug control policy, 
including leadership of respected former Presidents of major, 
countries such as Mexico, Brazil, and Colombia, calling for a 
rectification of 30 years of drug control policy. So this is 
clearly an opportune moment for such a debate.
    I ask that my statement be entered in full in the record, 
and I will just summarize points briefly here.
    Mr. Engel. Certainly. Without objection, so moved.
    Mr. Walsh. Thank you.
    Since the first point of this hearing is about assessment, 
I will focus on the major point, which is that our current and 
now longstanding policies have very evidently failed to achieve 
their most fundamental objectives.
    As Mr. Schneider mentioned in terms of coca cultivation, it 
has remained remarkably stable at around 200,000 hectares for 
these past 20 years, despite our best efforts. With regard to 
the price and purity of drugs like cocaine in our country--
which has been the chief objective of our enforcement-led 
strategies to drive up those prices--over the last 20 years, 
the prices have dropped significantly, and are now at or near 
their all time lows. Significantly, the street price of cocaine 
is now more than 20 percent lower than it was before the outset 
of Plan Colombia. This is not happy news, but I think if we are 
to assess the policies we have to acknowledge.
    We can debate what to do now, but we have to see that our 
basic policies have failed to meet their fundamental 
objectives. I would add that it is not merely that these 
policies have been ineffective. They have caused an enormous 
amount of collateral damage, whether intentional or not. Part 
of that is directly because of the policies and their 
implementation. We can look at fumigation and its impact on 
farmers whose livelihoods are lost. Part of it is indirect 
because of what we have called the balloon effect, the spread 
of trafficking and the drug trade to new areas under the 
pressure of enforcement. These aspects need to be considered by 
the commission.
    A second point, interagency coordination, which we have all 
talked about, I think is obviously crucial.
    But it is important, I think even more so, to focus on 
getting the goals and the strategies right. And I would say the 
commission, again, presents the opportunity to revisit those 
fundamental goals and see if we can be more nuanced, more 
clear, and set out goals and set priorities that are worthwhile 
and achievable. That has not been the case to date.
    I think another huge benefit of the commission approach is 
that it addresses supply and demand at the same time, as 
several people have remarked. I think this is true. But I think 
that is not enough in and of itself. And I would propose that a 
good way to move forward is to frame the drug policy priority 
questions as, how can we reduce the harms associated with drugs 
and drug markets, but also minimize the damage and harms 
associated with drug control policies? And I think we can have 
a better shot at setting the proper priorities and strategies 
that way.
    Related to the point of goals and goal setting is that 
performance measurement matters tremendously. The indicators 
that we choose to evaluate our policies are not an academic 
point. They are going to shape our policy. For instance, with 
regard to crop control, if our main indicator is the number of 
hectares eradicated, agencies are going to focus on that, 
whether it bears direct relationship to our fundamental goals 
of reducing availability or not. We might focus instead on 
measures of the welfare and well-being of the families who are 
actually farming crops like coca, on the theory that as their 
well-being improves, they are able to ease off their reliance 
on illicit crops like coca.
    And finally, and I think this is a crucial point, drug 
policy has no easy answers. It is more a series of bad options 
and choosing the least bad. That said, we can do this. And I 
think that is the motivation behind the commission itself.
    There has been a lot of enthusiasm for supply-side 
solutions over the years I think that stem in part from, it is 
easy to blame other folks for our problems, but also from a 
sense of, boy, there is not much we can do about these 
problems. And I think that is not true. I think there are a lot 
of examples going on in the United States and across the region 
that give hope that we can actually accomplish what we want 
with smarter demand and supply policies, and through policies 
and frameworks that reduce the harm associated with drug 
markets and drug control policies.
    So I thank you very much for your attention, and I look 
forward to your questions.
    [The prepared statement of Mr. Walsh follows:]<greek-l>John 
Walsh deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you very much, Mr. Walsh.
    Dr. Walser.
    Mr. Walser. Thank you very much.
    Mr. Engel. Why don't you turn on your mike.

STATEMENT OF RAY WALSER, PH.D., SENIOR POLICY ANALYST FOR LATIN 
 AMERICA, DOUGLAS AND SARAH ALLISON CENTER FOR FOREIGN POLICY 
                STUDIES, THE HERITAGE FOUNDATION

    Mr. Walser. Although my voice often carries without the aid 
of a mike.
    But thank you very much for this opportunity, Chairman 
Engel.
    Thank you very much, Ranking Member Mack and the other 
members of the subcommittee.
    I, too, am very heartened to hear news of H.R. 2134 passing 
today. In fact, I wrote a backgrounder saying, what are some of 
the things that the Obama administration could do when it comes 
into office? I did this back in February. And I actually 
recommended the creation of such a commission. I had experience 
back in the 1980s with the creation of one. You can debate its 
outcome and results, but the National Bipartisan Commission on 
Central America took this sort of approach to a contentious 
issue, and I think it laid a very fundamental framework for 
bipartisan strategies.
    I would like, sir, to introduce also my testimony, which I 
have left with you, into the record.
    Mr. Engel. Without objection, so ordered.
    Mr. Walser. Very good. I think that I would just add a 
couple of observations of things that you are going to have to 
deal with in the future.
    First of all is I think we have to continue to look very 
closely at the successes of Colombia. I think that Colombia is 
the pivotal country. Clearly, given the production of cocaine 
there, we have stressed some of its failures, but there are 
many successes that have occurred. The reductions in violence, 
the reductions in terrorism, control of national territory. It 
is the building of strong states in Latin America that is one 
of the fundamental objectives of a comprehensive counterdrug 
strategy. And I think that the United States has gone with 
considerable efforts, and certainly with your support and 
others, to build a much stronger Colombian state than we had 10 
years ago.
    I also echo the importance of supporting President Calderon 
and his fight against the drug cartels in Mexico. It would be 
good if we could see a turning point, but it is still going to 
be a very difficult challenge ahead.
    I would like to introduce one caveat. I think that in the 
drug trade, we deal a lot with the political context--clearly, 
the political context in the United States--but I think we have 
to also look that there is in the Western Hemisphere a growing 
body that really seems to be sort of pulling against us. And I 
believe that the United States should be deeply concerned about 
the connections that have developed between the drug trade and 
the Bolivarian revolution, widely proclaimed by Venezuela's 
Hugo Chavez and members of the Bolivarian Alternative for the 
Americas.
    The Bolivarian movement blends a toxic mix of resurgent 
nationalism, populist authoritarianism, and anti-Americanism. 
And while ALBA purports to seek the integration of people's 
regimes for the promotion of social justice and the benefit of 
the poor and marginalized, it cloaks a consistent strategy of 
noncooperation aimed at reducing U.S. access and influence in 
the regions. Booting the Drug Enforcement Agency out of 
Bolivia, or Venezuela, closing the forward-operating base at 
Manta, Ecuador, and expelling U.S. Ambassadors on flimsy 
pretexts are all signs of a consistent effort to undercut past 
joint progress on the drug front. The Bolivarian leaders see 
their strength waxing whenever U.S. influence wanes.
    I introduce in my testimony a number of recommendations 
largely coinciding with those which you have recommended, a 
consolidation of undertakings. Yes, why should we have a Plan 
Colombia, a Merida Initiative, a Caribbean security 
undertaking? I think we need certainly more interagency 
cooperation. Command and control in the drug fight requires a 
robust whole of government approach and constant interagency 
coordination. The democratic states of the Americas must 
continue to approach organized drug criminal organizations with 
the same determination and application of resources they employ 
to prevent international terrorism.
    I certainly think we should continue to strengthen our ties 
with Colombia. And clearly, one of those things that we can do 
to boost legal trade is to pass the free trade agreement with 
Colombia.
    Clearly, I think it is time to begin the planning stages. 
If I remember, the Merida Initiative will largely run out this 
year in terms of funding. It is time to look at Merida II or 
some more comprehensive undertaking such as you have suggested.
    Finally, I, too, agree that there are vulnerable countries 
in Central America, Guatemala being one, the islands in the 
Caribbean, that need special attention and need to be on sort 
of an urgent watch list by the U.S. Department of State and the 
like.
    Finally, I would make one observation on the demand side. I 
think that in the person of the 44th President of the United 
States, we have a powerful authority whose charismatic voice 
needs to be heard in targeted messages regarding the danger of 
drugs. The time appears right for the President to employ his 
formidable powers of persuasion to convince younger Americans 
that change and hope in their lives begins drug-free.
    Thank you very much.
    [The prepared statement of Mr. Walser follows:]<greek-l>Ray 
Walser deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Engel. Thank you, Dr. Walser.
    Thank you, all three of you, for very excellent testimony.
    Let me start with a couple of questions. I mentioned before 
the so-called balloon effect, which results from when we put 
pressure on one country or region, causing the drug trade to 
move to another area. That has always been a problem. With 
Merida, we put some money in it for Central America because of 
that. For years, whenever the drug trade has been attacked in 
one place in the hemisphere, it quickly pops up in another.
    So what can be done to counter that balloon effect? How can 
we create a more, as I call it, holistic counternarcotics 
strategy in the Western Hemisphere? And is there a way to more 
effectively weave together our counternarcotics efforts in the 
Andes, Mexico, Central America, and the Caribbean?
    And I also am throwing in with that, do our 
counternarcotics programs need greater flexibility to deal with 
emerging problems, such as the influx of drug cartels in 
Guatemala? I mentioned that before. We have held a hearing in 
this subcommittee on Guatemala. You know, the problem with the 
Mexican border with the United States; that is a problem. But 
when we push, they just go south of the border, and Guatemala 
is the most vulnerable country that doesn't have the 
institutions that Mexico has and the ability to cope with it. 
Do we need to have more flexibility in our counternarcotics 
programs to deal with these types of problems?
    Mr. Schneider. If I could start, Mr. Chairman, I think that 
you accurately stated what we found over the course of the past 
number of years with respect to the balloon effect, both in 
terms of cultivation and in terms of trafficking.
    So with respect to cultivation, in the 1990s when we were 
putting a lot of pressure on Bolivia and Peru, we saw the shift 
to Colombia. And in fact, now we are seeing some increase in 
cultivation in both Peru and in Bolivia as a result of the 
pressure in Colombia. Although Colombia remains by far, by far, 
the largest producer of coca and cocaine with respect to the 
flow to the United States.
    I just should add that I just received yesterday--it is not 
in the testimony, but I will send it--charts from JTIAF-South 
that include the interagency assessment of cocaine movement for 
the first 6 months of 2009. And again, they show nearly 534 
metric tons coming north, the bulk of those from Colombia.
    However, the same kind of balloon effects works on the 
transit side. So when we put pressure in Mexico, clearly the 
result is the drug traffickers, as that chart shows, they go to 
Guatemala, and they also go to Panama and to Costa Rica and now 
in the last couple of months to Honduras.
    So it seems to me that what we need to think about is a 
regional effort, I would urge you, thinking about how the new 
Western Hemisphere Drug Policy Commission can incorporate in 
some way the work that that Latin American Commission has 
already done and how there might be some parallel, if not 
advisory, group to your commission from the Latin American 
countries, particularly Mexico, Central America, and the Andes 
and the Caribbean, in order to try and develop some regional 
actions.
    And I would emphasize there particularly two aspects: Law 
enforcement and strengthening their institutions of civilian 
police and prosecutors and judiciary, and the other a regional 
look at what we can do with the youth problem in those 
countries.
    Mr. Engel. Thank you.
    Yes, Mr. Walsh?
    Mr. Walsh. Thank you.
    I would add, with regard to the balloon effect, two 
important points, the most important being that I don't think 
there is a counter to the balloon effect but better coping with 
the balloon effect, insofar as demand persists at very high 
levels. In other words, as long as there is a very large, 
lucrative market, then the supplies can be shifted by 
enforcement but not dramatically curtailed. And that is what 
the balloon effect is; it is a shifting of the production and 
trafficking to other places.
    So how to cope with that the paramount answer is: Do better 
in reducing demand and shrinking the market, here especially, 
because it is the world's largest. But the second part, coping, 
goes to what Mark said: Strengthening those institutions that 
have to deal with the impacts, whether it is in Colombia or 
Central America or Mexico. And I think that is a key aspect. It 
is not about what you do immediately. It is how you strengthen 
the institutions to cope with the impacts in terms of increased 
crime, armed actors, in all of those places.
    So I think those are the two big ones. But to understand 
that it is a coping strategy; so long as there is a massive 
demand, enforcement can shift the trafficking without 
eliminating it.
    Mr. Engel. Thank you.
    Did you want to, Dr. Walser--you don't have to.
    Mr. Walser. I was just going to make one additional 
comment, which is, particularly in the vulnerable states of 
Central America, you do have an undergoing Central American 
integration process that has been sort of hit or miss for the 
last 20-plus years, but it does involve interactions between 
defense and police officials.
    And I think that looking at ways to, perhaps, develop a 
more cooperative Central American drug police might be a 
potential vehicle for trying to counteract these individual 
vulnerabilities. I mean, it is a long shot, but, again, it may 
be worth a try.
    Mr. Engel. Thank you.
    Let me ask one more question. I am going to try to condense 
it. I mentioned before the perplexing thing about who is 
dealing with what over at the State Department. It is unclear 
who is overseeing our counternarcotics efforts in the Western 
Hemisphere. Perhaps if we let the confirmation process continue 
and we had an Under Secretary for Latin American and Western 
Hemispheric Affairs, we would perhaps clear that a little bit. 
But, unfortunately, the person being nominated is being held up 
by Senator DeMint in an unrelated squabble. The person who was 
designated as the Assistant Secretary for Western Hemisphere, 
his confirmation has been held up.
    But in the interim, you know, different people in State 
Department seem to be running the Andean program and the Merida 
Initiative, not the same people. And I still don't know how the 
Caribbean Basin Security Initiative will be combined into these 
operations or who will oversee in the entire strategy.
    Now, our full committee, the Foreign Affairs Committee, has 
already passed legislation calling for a coordinator at the 
State Department for the Merida Initiative. And this hearing 
opens the question of how best to manage our Western Hemisphere 
counternarcotics effort at State and throughout the Federal 
Government.
    So let me ask each of you, do you think we need one 
coordinator to integrate and oversee all the counternarcotics 
efforts in the Americas, to manage the likely balloon effect 
and prevent duplication and conflicting programs? I think that 
is pretty much a loaded question, but I would like for the 
record to have all of you comment on it.
    Mr. Schneider. If I could--and I am not sidestepping, but I 
think there is a need for an interagency coordinator. You have 
the White House, but, in a sense, that is looking both at 
demand and supply. And it seems to me that that is a very 
important role that you don't want to diminish.
    Now, at the same time, you make the good point that there 
needs to be greater coordination within the Western Hemisphere 
programs, both in terms of reducing supply--and I would argue 
here that includes alternative development in the various 
countries, and it also includes dealing with the problems of 
interdiction and law enforcement.
    I should add that the OMB does something which evaluates 
performance, and they came up with the same concerns that you 
did. They basically say that there is very little coordination 
among the various agencies. And they, in fact, have urged that 
there be some kind of coordination mechanism. And yours seem to 
me to be a very useful idea, but I would put it in a way so 
that these directly linked to the White House coordinator so 
that there is a clear coordination at the interagency level as 
well.
    Mr. Engel. Thank you.
    Mr. Walsh?
    Mr. Walsh. Yeah, I agree that the interagency coordination 
aspect is key. And, in fact, ONDCP's role statutorily is to 
define a strategy and to undertake that interagency 
coordination.
    It also seems that, given the scope of the challenge in the 
Western Hemisphere, it is not just one or two people who need 
to have more responsibility. There would need to be a team that 
is prepared to think creatively about these new indicators of 
success and really do the coordination. Because it is one thing 
to put it on paper, and it is another thing to carry it out.
    Mr. Engel. Thank you.
    Dr. Walser?
    Mr. Walser. We still have supposedly vacant the promised 
special envoy for the Americas. Perhaps the special envoy 
position in the White House could be created primarily to deal 
with the drug issue.
    But, again, I also agree that there has to be some sort of 
streamlining, a central coordinator who will referee between 
Western Hemisphere affairs, INL, you have to draw in USAID, 
plus all the other agencies outside, would be useful at the 
Department of State.
    Mr. Engel. Thank you.
    I now call on Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman.
    And thank all of you for your testimony today.
    Two questions, really. On the demand side, we have talked a 
lot about the demand here in the U.S. and I would like to ask 
each one of you if you have a proposal, an idea that is rooted 
in research that is objective, that we can use to really--and I 
am asking a question that I think I know some of the answers 
to, but I think it is important that, when we talk about the 
demand on the demand side, it is easy to say ``the demand 
side,'' but you really have to find a way to get at reducing 
the urge for people to use drugs. Or those that have, how can 
you help them work through their addiction?
    And so, the question is, what kind of proven methods, 
techniques are you familiar with and that you think ought to be 
moved forward?
    And then the other side--I mean, it is no secret, my 
position when it comes to Venezuela's Hugo Chavez. But, Mr. 
Chairman, as I sit through all of our hearings and our 
conversations, you know, for me, the anchor, if you will, for 
evil in Latin America is Hugo Chavez. Whether it is the 
destruction of freedom, destabilizing governments, anti-
Semitism, terrorism, and drug trafficking--I mean, these are 
all things that are anchored in the Western Hemisphere by Hugo 
Chavez.
    And so, the other part of the question is, when we talk 
about narcotrafficking, how are we going to be able to convince 
Hugo Chavez to stop drugs from moving through his borders when, 
in fact, in my opinion, he is looking to destabilize? This is a 
tool that I believe he is using.
    So I will leave those two questions out to all three of 
you.
    Mr. Schneider. If I could start, Mr. Chairman, with respect 
to the first question, on demand reduction, I think, for 
example, the drug courts, which have the ability to order 
treatment for users who are brought before them, constitute a 
very successful mechanism for dealing with the problem, much 
more than simply putting somebody in jail for 6 months, 2 
years, 5 years. And right now there are only 2,000 of them 
nationally. There are 1.6 million drug-related arrests each 
year. So we are talking about an infinitesimal, small number of 
courts relative to demand. That is one thing.
    And the second goes, if you will permit me, to your wife's 
testimony. What we have failed to do is we have failed to make 
this a priority, reduction of the use of illicit drugs, 
particularly cocaine, a priority in this country. And here is 
my second proposal, is that I would hope that the commission 
would come up with a parallel effort to that of reducing 
smoking and drunk driving with respect to stopping the use of 
cocaine.
    While, as you recall, I said that the bulk, two-thirds of 
the cocaine used are from addicts who require a public health 
response, that means that the other third are recreational 
users. And what we need to do is to essentially make that 
unacceptable because of what it does to our society and what it 
does to the societies in Latin America.
    So those would be my two proposals.
    With respect to Venezuela, I would say that no other 
country in the hemisphere agrees with any country allowing 
drugs to flow through freely. And so I would urge that we would 
look--and here it goes back to the regional aspect. I would 
urge our diplomats and the State Department to talk with 
President Lula, with President Bachelet, and to bring to them 
the details of what we see, in terms of the flow of drugs 
recently through Venezuela to Hispaniola to the United States 
or from Venezuela to the European market through West Africa. 
Because they also are facing the problem of drug trafficking 
and drug consumption in their countries. And I think we would 
have allies in dealing with that problem with him.
    Mr. Walsh. As to the demand-reduction question, which I 
think should be central to what the commission considers, I 
have two basic points and one to extend what Mark said.
    First, where someone who is a problematic user is ready for 
treatment, treatment needs to be there for him or her. So I 
would say, in thinking about bringing our treatment system up 
to speed, treatment on demand needs to be the goal. That is 
going to mean different things in different communities, but it 
shouldn't require being arrested to have access to treatment.
    So, treatment on demand. And I think we have good people in 
place to think this through, at ONDCP as well, real experts in 
the field, that improves the quality of the treatment but also 
access to it. Those are critical issues.
    The second point is, as valuable, I think, as drug courts 
have been, I think for reasons Mark said, they fall very short 
in terms of their scope, considering the dimensions of the 
problem.
    And, in particular, if a lot of the drug use, including 
drug use among people who are involved in other crimes, is 
actually concentrated among a population that is under criminal 
justice supervision, there are policy innovations like Hawaii 
Opportunity Probation with Enforcement, known as HOPE, that has 
shown really great success in reducing drug use, drug-related 
crime, and incarceration among probationers through a series of 
frequent drug tests--frequent but random drug tests, followed 
by mild sanctions. You are not back in prison for 2 years if 
you miss a drug test, but it is mild sanctions. It has been 
dramatically effective in cutting back drug use, also new 
arrests and new crimes.
    So I think there are innovations, not just in people's 
minds but already on the ground in this country, that can help 
reduce demand much more than we have appreciated so far.
    I think on the question of Venezuela and more generally, I 
think, on the question of a country or a region that could 
prove to be a weak link to a strategy, we need to think about 
strategy in a way that removes or minimizes the possibility 
that, whatever weak link it might be--people will see it 
differently--it could scuttle the strategy.
    And that, again, points to the fact that we need to take 
better care to address our problems here at home, rather than 
have to depend upon 34 other countries and their whims to do it 
for us.
    With regard to Venezuela, however, I think that the 
question of drug trafficking and crime is a huge problem for 
the Venezuelan Government and the Venezuelan people. And I 
suggest that it is much more a matter of capacity, weak 
capabilities, a very porous border with Colombia, which remains 
the mega-producer of cocaine, than it is of political will. And 
I second the idea that we should look to engage, and not to 
demonize, for cooperation on that issue.
    Mr. Walser. I think I did offer one demand-reduction 
recommendation, which is engaging President Obama, himself, 
directly in a demand-reduction campaign. I think his story, his 
impact would be substantial and should be employed.
    As for Mr. Chavez, persuasion, public diplomacy may be very 
difficult. There are a couple of measures clearly available to 
the U.S. Government. One is to place Mr. Chavez on the list of 
state sponsors of terrorism. He would join the company of Cuba, 
Iran, Sudan, and--I am trying to think of the fourth one; all 
of a sudden, I am drawing a blank here--but, clearly, nations 
with which he has cultivated very close and increasingly 
intimate ties.
    The second one, clearly, is to reduce our dependency upon 
Venezuelan oil before he finds the alternate markets that he is 
busily searching for and wants to cut us off from his supply of 
oil.
    So pressure, probably hardball politics seem to be in order 
with Mr. Chavez, but it remains to be seen if we can move in 
that direction.
    Mr. Engel. Thank you very much.
    Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman.
    You know, it is really disturbing to me that--first of all, 
thank you for being here--how you speak about the lack of 
interagency coordination. You would think this country would 
learn after 9/11 that we need to have more coordination, 
especially with something as important as drugs that is coming 
into this country and destroying our country. And it is 
disturbing to me to hear that.
    But with all the increased violence in Mexico and the 
emergence of the Merida Initiative, it seems like Colombia has 
taken the backdrop. Where are we with Colombia today? And why 
is it that, after all these efforts and all the success that I 
think we have had in Colombia, they are still the largest coca 
producer? Can somebody just----
    Mr. Schneider. I mean, I think, Congressman, that it goes 
back to the underlying problem of, given the attractiveness of 
the demand in the United States for cocaine, that it is very, 
very difficult to close out the capacity of drug traffickers to 
find places to cultivate coca, despite the efforts to 
strengthen Colombian institutions.
    Here, there is--we talk about the balloon effect. There is 
also what is called the mercury effect. And that is when you, 
with a hammer, you hit mercury, it shatters. And what occurred 
in the last several years in going after the large coca 
plantations that the drug traffickers were using in Colombia, 
it shattered. And they moved into much smaller plots, much more 
isolated, if you will, and continued to produce coca.
    Now, there have been ups and downs. The U.N. says they are 
this; the United States has lately said that the coca 
cultivation has gone up. And that is what happened, is that 
that mercury shattered; drug traffickers moved their 
cultivation into different areas.
    And the other is that there still has yet to be in Colombia 
a far-reaching rural poverty-reduction strategy that challenges 
the drug traffickers. The drug traffickers offer credit. They 
offer to pick up the product at the farm gate after it is 
harvested. And that is not offered to those who are doing 
legitimate farming. We need to match them, and we haven't done 
that.
    And, finally, I would say that, while Colombian law 
enforcement institutions have become stronger, there is still a 
problem with respect to corruption that you have seen discussed 
recently.
    Mr. Engel. I am going to let Mr. Walsh and Dr. Walser 
finish, but I am going to try to speed it up. As you can hear, 
we have votes, and I would like to finish before the votes. And 
Ms. Lee, I know, has questions. And Ms. Jackson Lee is here, 
and we welcome her. I think she is a valued member of the full 
committee, and she often comes to our subcommittee. We welcome 
her.
    So if I could just ask you to try to speak a little faster, 
so we can get this all in before we have to leave for votes.
    Mr. Walsh. Okay. Very quickly then, I agree with everything 
that Mark just said by way of explanation of Colombia.
    I think we suffered the illusion that fumigation was going 
to solve the coca problem in Colombia. And it was just that: It 
was an illusion. Because the underlying conditions, market 
demand, vast rural poverty, the lucrativeness of the business, 
means that the basic underlining conditions haven't changed.
    The growing has shifted to more remote areas, and the 
violence that accompanies the growing on these border zones has 
been displaced there. So it is a very traumatic situation in 
the rural areas of Colombia already and, with the overlay of 
coca production, even worse.
    So I think that is where Colombia is.
    Mr. Schneider. Just one thing, Mr. Chairman. Also, you have 
the FARC paramilitary and others who are using coca as their 
source of income.
    Mr. Engel. Okay. Thank you.
    Mr. Sires. I have visited Colombia the last 5 years, and I 
have seen a marked difference in that country. I was just 
curious why it is still the largest producer. It is a big 
difference than it was 5 years ago.
    Thank you, Mr. Chairman.
    Mr. Engel. Okay. That was a rhetorical question?
    Mr. Sires. No, that was just a statement.
    Mr. Engel. Oh, a statement. Okay.
    Ms. Lee?
    Ms. Lee. Thank you, Mr. Chairman.
    For those who drink liquor, please excuse this question. 
But why isn't alcohol--I know it is not an illicit drug, but 
when I look at and think about this commission--Dr. Walser, you 
have in your testimony, ``Drug-related crimes, addictions, and 
wasted lives are among the most preventable burdens upon our 
health system, our justice system, and our penal system.'' That 
is as it relates to illicit drugs.
    Alcohol does the same thing. And so I am interested in your 
thinking, all of your thinking, on why we don't look at 
alcohol, because the impact is exactly the same.
    Secondly, prescription drug use. And let me just give you 
one example. And I hope the commission looks at this. Thank 
goodness Congresswoman Mack brought this up.
    Why don't we look at, and should we look at, physicians' 
prescriptions for pain reduction and why a drug such as 
OxyContin is allowed to be prescribed first, a narcotic first 
before all other forms of painkillers could be introduced? Why 
do physicians oftentimes--and I know this for a fact--go to the 
most serious narcotic that could be the basis for an addiction, 
long term?
    Mr. Walser. Since you mentioned my testimony, I agree, 
alcohol--the harm done by alcohol, the harm done by drugs, the 
harm done by tobacco. Sadly, human nature in this country and 
around the world seems to enjoy those pleasures which are 
harmful to us. And it is part of the human psychology. That is 
why going after drug trafficking is so difficult. I mean, the 
addiction connections, the physical response. Clearly, I am not 
a physician, but they are of a similar nature in philosophical 
order.
    Secondly, in regard to your second question, I am afraid I 
claim no competence in the area of domestic abuse of domestic 
drugs.
    Mr. Walsh. I will also have to acknowledge my lack of 
expertise on the question of how to best regulate 
pharmaceuticals and, in particular, pain killers, given their 
liability for abuse.
    And on the question of alcohol, in terms of the harms that 
it causes, I would just note that, in that it is a legal 
substance, it may cause more harm than some of the currently 
illicit substances. Part of that is the scale of use because it 
is legal, far more widely used than a drug like cocaine. Part 
of the question I think the commission is grappling with is, 
because alcohol is legal, by and large it is not smuggled 
across borders and the object of huge, multinational, organized 
criminal enterprises at this stage. And that is another key 
aspect of the commission's work that I think is relevant.
    I think the issue of alcohol does raise important questions 
about the range of options for us to manage and cope with the 
harms caused by illicit drug abuse, because we control alcohol, 
regulate it, although it is legal. So when you think about how 
we try to control alcohol, how we try to control tobacco, 
nicotine, it opens up the way of thinking about how to best 
regulate supply and demand for substances that cause harm, are 
potentially addictive and toxic.
    Mr. Engel. Let me call on--if that is all right, 
Representative Sheila Jackson Lee of Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you for your 
courtesies. And I realize that we are rushing to the floor. So 
let me just have two questions, one to support the commission 
that is being set up. I think that it is time to shed light.
    I come from Texas, and right now we are dealing with an 
enormous gun battle and drug wars on the border between Mexico 
and the United States. But Houston has been called the gun-
running capital, where there is enormous access to guns.
    How does the flow of guns into South and Central America 
impact on the--and I know we are speaking about drug use--but 
impact on the overall criminal elements of this? And how do we 
look to those issues, the utilization of guns, as we look 
relevantly to the question of consumption and the question of, 
of course, sales? How is the gun aspect engaged in all of this?
    Mr. Schneider. Let me start, Mr. Chairman.
    Congresswoman, I think that what we have seen is that the 
flow of guns south strengthens the drug traffickers and the 
cartels and essentially makes them a more potent threat to law 
enforcement. And, in fact, there has been now a substantial 
amount of tracing of weapons that have been used in homicides 
in Central America, in Guatemala particularly, and in Mexico. 
And it is clear that they come from the U.S. and that there is 
a great need to put greater controls on that flow.
    I should just add that recently--there is a binational 
panel of former officials from both Mexico and the United 
States, and they strongly came out for regulating assault 
rifles and assault weapons, because they have shown up in 
Mexico, and, obviously, they have been used to cause an 
enormous amount of damage and loss of life.
    Mr. Walsh. I would only add that, in acknowledging the 
United States' own responsibilities for the violence, in 
particular in Mexico, it is not only the market for drugs. In 
other words, we are sending our dollars south to enrich 
criminal organizations. But, as Mark points out, we are also 
sending our guns south. And, in a business that puts a premium 
on violence, obviously that is a terrible combination.
    And I think it is also our responsibility not just to do 
better to address demand in shrinking our own drug market, but 
to do better, to be more responsible about our own laws with 
regard to easy access in trafficking of weapons.
    Mr. Walser. Just two comments. Using the figure of 90 
percent of the guns recovered in Mexico are traced back to the 
United States, that figure doesn't oftentimes stand up to full 
scrutiny because many of the guns--those are the guns that the 
Mexicans recover and then request the tracing of, not taking 
into account those that are recovered and requests are not 
made. So the number is smaller, but it is still significant. 
There is no doubt that significant numbers of guns, especially 
high-caliber and assault weapons and so, make it across the 
border and are purchased.
    We do have a fairly strong body of laws that says most all 
of this is illegal. We need tougher enforcement of that. And to 
move to the next stage, such as Congressman Engel and others 
have put forth, is a tough legislative battle, I think, on both 
sides.
    Ms. Jackson Lee. Mr. Chairman, thank you for allowing me. 
And I hope that my questioning on the guns issue allows us to 
partnership on--almost like mixing oil, water, and fire. I 
think we will not cease the violence and then to be able to 
focus on the problem of drugs without this whole enormous 
problem of guns coming from the United States into that region.
    Mr. Engel. You know, Ms. Jackson Lee, before you leave and 
before we adjourn, it is interesting that, in traveling to 
Mexico and Jamaica with the subcommittee on the same trip, the 
President of Mexico, Mr. Calderon, and the Prime Minister of 
Jamaica, Mr. Golding, both said the exact same thing to me: 
That between 92 and 95 percent of all the guns that they find 
committing crimes, including drug crimes, are coming from the 
United States.
    So this is a definite problem that has to be addressed. And 
I believe you were part of a letter that I had sent to the 
President of the United States urging him to implement laws 
that are already on the books, that don't need legislation to 
have a law that is already there. It was implemented by the 
first President Bush, by President Clinton. It was not 
implemented by George W. Bush. And now we are just asking the 
President to go back and do what the first Bush and the Clinton 
administrations were doing. And it is simple, and to me it is a 
no-brainer.
    So I thank you for raising that issue.
    Ms. Jackson Lee. I thank you for your leadership. And we 
know that that is separated from the second amendment that 
people want to use all the time.
    Thank you.
    Mr. Engel. Definitely. Thank you.
    And thank you, gentlemen, for excellent testimony. I really 
appreciate it. Take care.
    And the hearing is now adjourned.
    [Whereupon, at 4:18 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Engel--FTR deg.__

 Material Submitted for the Record by the Honorable Eliot L. Engel, a 
 Representative in Congress from the State of New York, and Chairman, 
                 Subcommittee on the Western Hemisphere

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
